No. 19-1291

In the Supreme Court of the United States
CHARLES HAMNER, PETITIONER,
v.
DANNY BURLS, ET AL.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
EIGHTH CIRCUIT

CERTIFICATE OF ELECTRONIC SERVICE
Pursuant to Supreme Court Rule 29.3 and the Court’s April 15
Order, I certify that Petitioner and Respondents consented to
receive service of the Brief of Professor John Stinneford as
Amicus Curiae in Support of Petitioner electronically and I
caused electronic copies of the brief to be served via email on all
parties at the addresses listed on the attached Service List.
Executed on June 12, 2020.
__________________________
ANDREW T. TUTT
Counsel of Record
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
andrew.tutt@arnoldporter.com
Counsel for Amicus Curiae

Service List
Petitioner
Daniel Greenfield
Northwestern Pritzker
School of Law
Roderick & Solange
Macarthur Justice Center
375 East Chicago Avenue
Chicago, Illinois 60611-3069
(312) 503-8538
Daniel.greenfield@law.northwestern.edu
Megha Ram
Roderick & Solange
Macarthur Justice Center
777 6th Street NW, 11th Floor
Washington, DC 20001
(202) 869-3434
Megha.ram@macarthurjustice.org
Respondent
William C. Bird III
Senior Assistant Attorney General
323 Center Street, Suite 200
Little Rock, AR 72201
Telephone: (501) 682-1317
Facsimile: (501) 682-2591
William.Bird@ArkansasAG.gov

